<html>
<title> - A RELIC OF THE COLD WAR: IS IT TIME TO REPEAL JACKSON-VANIK FOR RUSSIA?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
A RELIC OF THE COLD WAR: IS IT TIME TO REPEAL JACKSON-VANIK FOR RUSSIA?

=======================================================================


                             JOINT HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON EUROPE

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2010

                               __________

                           Serial No. 111-112

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
56-198                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                         Subcommittee on Europe

                 BILL DELAHUNT, Massachusetts, Chairman
JOHN S. TANNER, Tennessee            ELTON GALLEGLY, California
ALBIO SIRES, New Jersey              GUS BILIRAKIS, Florida
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHELLEY BERKLEY, Nevada              TED POE, Texas
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
DAVID SCOTT, Georgia                 BOB INGLIS, South Carolina
JIM COSTA, California                J. GRESHAM BARRETT, South Carolina
VACANT<greek-l>Until 6/9/10 deg.

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation and Trade

                   BRAD SHERMAN, California, Chairman
GERALD E. CONNOLLY, Virginia         EDWARD R. ROYCE, California
DAVID SCOTT, Georgia                 TED POE, Texas
DIANE E. WATSON, California          DONALD A. MANZULLO, Illinois
MICHAEL E. McMAHON, New York         JOHN BOOZMAN, Arkansas
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
RON KLEIN, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Edward S. Verona, President and Chief Executive Officer, 
  U.S.-Russia Business Council...................................    15
Mr. Mark B. Levin, Executive Director, National Conference on 
  Soviet Jewry...................................................    21
The Honorable Stephen Sestanovich, George F. Kennan Senior Fellow 
  for Russian and Eurasian Studies, Council on Foreign Relations 
  (Former Ambassador-at-Large and Special Adviser to the 
  Secretary for the New Independent States)......................    32
Edward D. Lozansky, Ph.D., Founder and President, World Russia 
  Forum..........................................................    41
Mr. Mark Talisman, President, Project Judaica Foundation.........    47
Mr. David Satter, Senior Fellow, Hudson Institute................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Bill Delahunt, a Representative in Congress from 
  the Commonwealth of Massachusetts, and Chairman, Subcommittee 
  on Europe: Prepared statement..................................     4
Mr. Edward S. Verona: Prepared statement.........................    18
Mr. Mark B. Levin: Prepared statement............................    23
The Honorable Stephen Sestanovich: Prepared statement............    34
Edward D. Lozansky, Ph.D.: Prepared statement....................    43
Mr. Mark Talisman: Prepared statement............................    50
Mr. David Satter: Prepared statement.............................    55

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    68
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California, and Chairman, Subcommittee on Terrorism, 
  Nonproliferation and Trade: Material submitted for the record..    69
Mr. Mark B. Levin: Letter dated November 19, 2001, from Mr. 
  Harold P. Luks, Chairman, NCSJ, to President George W. Bush....    77
The Honorable Bill Delahunt: Statement by the Honorable Dennis J. 
  Kucinich, a Representative in Congress from the State of Ohio..    78


A RELIC OF THE COLD WAR: IS IT TIME TO REPEAL JACKSON-VANIK FOR RUSSIA?

                              ----------                              


                        TUESDAY, APRIL 27, 2010

          House of Representatives,        
                 Subcommittee on Europe and        
                     Subcommittee on Terrorism,    
                        Nonproliferation and Trade,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:07 p.m., in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the Subcommittee on Europe) presiding.
    Mr. Delahunt. This joint hearing will now come to order. I 
want to welcome all of our distinguished panelists. I will have 
an opportunity to introduce you individually as we proceed 
forward, but I will make a few opening remarks, and then 
recognize my colleagues.
    In early 2009, the United States-Russian relationship was 
at its lowest point since the end of the Cold War. The Obama 
administration came to office with a conviction that an 
improved bilateral relationship was essential to our national 
security. After both countries hit the so-called reset button 
in February 2009, some significant and important developments 
occurred in both tone and substance in the bilateral 
relationship. Let me put forth some examples.
    First, as a result of Russian cooperation, in less than a 
year, 20,000 American troops headed for Afghanistan have either 
traveled through Russia or over Russian airspace, saving the 
American taxpayers some $133 million. Secretary of State for 
Political Affairs Bill Burns recently observed, and these are 
his words, Russia is becoming a much more active operational 
partner in a collective effort to help stabilize Afghanistan 
and prevent violent extremism to regain a platform there.
    As to the issue of a nuclear-armed Iran, there has been a 
shift in the Russian position regarding sanctions. It is no 
longer a question if sanctions should be imposed, but a 
question of what form they should take.
    In the aftermath of the July summit in Moscow, both 
Presidents agreed to form the U.S.-Russia Bilateral 
Presidential Commission. This Commission, with 16 working 
groups, is dedicated to dealing with issues such as energy, 
terrorism, drug trafficking, science and technology, education 
and cultural exchanges, and much more. Their work is 
progressing, and reports are expected by the end of the summer.
    Most importantly, on April 8th in Prague, Czechoslovakia, 
the United States and Russia signed a historic nuclear arms 
reduction treaty slashing the number of strategic nuclear 
warheads by one-third. This new START agreement signifies a 
substantial change in the relationship and demonstrates to the 
nonnuclear world that both Russia and the United States are 
committed to advancing the cause of nuclear nonproliferation.
    Furthermore, it is important to note that the reset of this 
relationship is not limited to official governmental actions, 
but has had an impact on Russian attitudes toward the United 
States. In early 2009, only 38 percent of the Russian 
population had a positive attitude toward the United States. A 
year later, that number has increased by 16 percent. Now some 
54 percent of the Russian people have a favorable view of the 
United States.
    So, yes, it is my opinion that the bilateral relationship 
has improved in many ways, and it is my own belief that it is 
imperative to our national security to sustain this momentum, 
because we can't forget that the United States and Russia 
possess 96 percent of the world's nuclear weapons. So, if for 
no other reason, this reality makes this a most critical 
bilateral relationship and should underscore the need to 
sustain and enhance the positive trends that have developed 
over the course of the past year.
    Now, I am not naive, and I recognize that there are and 
remain disagreements and contentious issues between us that 
need to be addressed, and I am sure there will be hearings and 
other occasions and other venues to discuss those issues. But 
one of the most obvious irritants in the bilateral relationship 
from the Russian perspective is the continued application to 
Russia of section 402 of the Trade Act of 1974, the so-called 
Jackson-Vanik amendment. The amendment imposed trade 
restrictions on those countries who denied its citizens the 
right of freedom of immigration.
    The genesis of the amendment was the Soviet Union's refusal 
to allow Soviet Jews to travel overseas, but the reality is 
that Russia, as the successor of the Soviet Union, has fully 
complied with the amendment's requirements as concluded by a 
Presidential compliance determination since 1994, 16 years ago, 
and yet Congress has failed to graduate Russia from the 
amendment.
    Ironically, Russia and Israel recently implemented a visa-
free travel program for their citizens traveling between their 
countries. It was implemented just this past Saturday. This 
program eliminates the Byzantine process of filling out the 
extensive Russian visa application and then navigating the 
Russian bureaucracy.
    It would appear that Russia and Israel enjoy a special 
relationship. It is interesting to note that neither Israel nor 
Russia are participants in our Visa Waiver Program. So, I 
believe we should take the advice of the coauthor of this 
amendment, the late Congressman Charles Vanik, who stated in 
1989, and, again, these are his words, the Soviet Union has 
freed up immigration to the point where it makes sense to waive 
Jackson-Vanik and restore normal trade tariff conditions to 
Moscow.
    I would submit that it is time for the United States 
Congress to act, and we do have a precedent for graduating 
countries from Jackson-Vanik. For example, even though China 
remains a Communist country today, in 1999, Congress graduated 
it from all aspects of Title IV of the 1974 Trade Act, paving 
the way for China's accession to the WTO, and yet Russia has 
not acceded to the WTO after filing its application back in the 
early 1990s.
    As I said, Russia has satisfied the requirements 
articulated by the amendment, and we should not move the 
goalposts and ask for further concessions that are irrelevant 
to the amendment. Changing the rules of the game seriously, I 
believe, undermines our credibility and breeds resentment that 
affects the relationship and our own bona fides as a potential 
partner. Not only would graduating Russia bring economic and 
commercial benefits, encouraging American companies to increase 
investments in Russia, but will also send a clear and distinct 
message to the Russian people that the United States is serious 
on forging a more dynamic and cohesive partnership.
    I look forward to the testimony from today's witnesses.
    [The prepared statement of Mr. Delahunt follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Delahunt. Now let me turn to my friend and ranking 
member, the gentleman from California Mr. Gallegly, for his 
opening remarks.
    Mr. Gallegly. Thank you very much, Mr. Chairman, and thank 
you for holding the hearing today to look at the possibility of 
repealing the Jackson-Vanik amendment as it applies to Russia. 
I would also like to welcome and thank the six witnesses that 
are here today participating in this hearing.
    The Jackson-Vanik amendment was enacted into law with the 
intention of protecting the rights of Jews attempting to 
emigrate from the former Soviet Union in the 1970s. The 
amendment removed most-favored-nation trade status until Russia 
was in full compliance with a free immigration policy. Every 
year since 1994, U.S. Presidents have declared Russia to be in 
compliance in terms of freedom of immigration. This awards 
Russia what is now normal trade relation status.
    Jackson-Vanik is effectively not applied to Russia as long 
as their compliance with immigration standards does not change. 
However, the continued existence of Jackson-Vanik impacts the 
U.S. trade relationship with Russia as Russia prepares for 
membership in the World Trade Organization. Without the repeal 
of Jackson-Vanik for Russia, the United States will be forced 
to opt out of the WTO obligation toward Russia, and, because of 
the conditions placed on Russia, NTR status as a result of 
Jackson-Vanik.
    As we consider lifting Jackson-Vanik, it is important to 
note that although the trade relationship between Russia and 
the United States has grown significantly in recent years, 
there are still outstanding issues. The most notable is the 
failure of Russian authorities to adequately enforce 
intellectual property rights. In addition, there remain high 
tariffs in place on cars and sports utility vehicles that are 
imported from the United States, as well as issues related to 
the importation of beef and poultry into Russia.
    As Congress and the Obama administration considers lifting 
Jackson-Vanik, I believe it is imperative that all of these 
trade issues be resolved. Further, it is my belief that our 
trade policy toward Russia would be viewed in the larger 
context of our overall bilateral relationship.
    The U.S. has many critical national interests that are 
profoundly impacted by our relations with Russia, including, 
most importantly, our effort to prevent Iran from acquiring 
nuclear weapons. In addition, the United States is seeking 
strong Russian cooperation in the war against international 
terrorism and preventing terrorist groups from acquiring 
weapons of mass destruction. We also have strong interests in 
the evolution of Russia's own political system, its respect for 
human rights and its relations with its neighbors.
    Therefore, I look forward to listening to the witnesses 
today on the impact of Jackson-Vanik on our trade relationship 
and on the U.S. national security priorities.
    Thank you, Mr. Chairman.
    Mr. Delahunt. Thank you, Elton.
    I am going to go first to the vice chair of the 
Subcommittee on Trade and Nuclear Proliferation, the gentleman 
from Georgia Mr. Scott.
    Mr. Scott. Thank you so much, Mr. Chairman. It is good to 
be with you again on this important hearing.
    Obviously, with the end of the Cold War, Russia is no 
longer the looming threat it once was to us, and neither are we 
the looming threat that we once were to Russia. Quite the 
contrary, we have the potential now of developing one of the 
great partnerships in the history of civilization, particularly 
addressing the security and economic challenges facing the 
world, no matter whether it is the procurement and the safety 
of nuclear weapons and ending proliferation, the hot spots of 
dealing with Iran, our relations with China, keeping weapons of 
mass destruction and nuclear weapons out of the hands of 
terrorists.
    Wherever we are in dealing with security of the world, 
Russia and the United States loom as great, necessary partners. 
In order to achieve the maximum level of cooperation, it is 
vitally important that we set aside broad philosophical 
differences, some that still linger, and shrug off the last 
vestiges of this Cold War.
    Our subcommittee must approach today's topic with 
recognition of the delicate balance necessary to promote 
America's best interests abroad, and we must promote a trade 
policy that encourages the responsible growth of American 
business here at home and abroad, but never at the expense of 
three things; never at the expense of our national security, 
nor in the face of egregious and appalling human rights 
violations abroad, and nor at the cost of the American workers 
here at home. Those are the three pillars of things we must not 
do.
    But as the global markets recover, we are presented with a 
fortuitous opportunity of recognizing the mistakes of the past 
and strengthening American standards as the prime engine of 
global economic development. We must encourage a rising tide 
where economic growth coincides with increased living standards 
and greater democracy. We must eliminate technical barriers to 
trade and tariffs on U.S. goods, and we must protect 
intellectual property as well as human rights and the rights of 
labor.
    So, as we gather here today, I think the fundamental 
question that we have before us was best phrased a few 
centuries ago by our good friend William Shakespeare, who said, 
To be or not to be, that is the question. To have Jackson-Vanik 
or not have Jackson-Vanik, that is the question before us 
today. What would be the impact if we have it; what is the 
impact if we remove it in terms of our Russian relations?
    Then, finally, I think we have another opportunity to, in 
the words of the great Humphrey Bogart from the movie 
Casablanca--as the movie ends, if you recall, he puts his arm 
around the captain and he says, ``Louis, I think we have the 
beginning of a wonderful friendship.'' That is what we have 
here in the possibilities with Russia.
    Thank you, Mr. Chairman.
    Mr. Delahunt. I want to thank the gentleman for his 
eloquence and his remembering that great American Humphrey 
Bogart.
    With that, let me go to the ranking member, the gentleman 
from California Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    Jackson-Vanik helped millions by promoting freedom of 
immigration and other freedoms. It is indelibly written into 
the history of United States-Soviet relations. To ask whether 
it is useful is no slight to its great legacy.
    Some argue that Jackson-Vanik's continued application to 
Russia is a major diplomatic impediment. It impedes cooperation 
on the Iran policies, some say. That is an oversell. Russia, 
unfortunately, appears determined to accommodate Iran, a policy 
that will eventually bite it, Jackson-Vanik or not. On the 
other hand, I don't see Russia's bad Iran policy or our other 
foreign policy and trade concerns with Moscow as strong reasons 
to maintain Jackson-Vanik.
    This legislation addresses specific circumstances, and 
fortunately, while Russia suffers many human rights problems, 
problems this administration is largely silent on, there is 
freedom to emigrate from Russia.
    When it comes to big disputes, and we have several with 
Russia, I don't see how Jackson-Vanik has much of a chit. 
Jackson-Vanik could be maintained while continuing to determine 
that Russia isn't impeding emigration, as has been done for 16 
years, but there is something advantageous here in us 
recognizing that this area has improved and put Russia with 
almost every other country that isn't subject to Jackson-Vanik, 
including oppressive China.
    Russians, including Russian democrats, resent being 
targeted by this annual review, especially when some in 
Congress link Jackson-Vanik status to unrelated issues that can 
be addressed differently. Linking Jackson-Vanik to poultry 
trade disputes, for example, can't strengthen our ability to 
push human rights in Russia.
    I look forward to hearing the wide range of views here 
today, Mr. Chairman, and I thank you for calling this hearing.
    Mr. Delahunt. I thank the gentleman.
    Now my other colleague from California, the chairman of the 
Subcommittee on Terrorism, Nonproliferation and Trade, Mr. 
Sherman.
    Mr. Sherman. Mr. Chairman, you are surrounded by 
Californians.
    Mr. Delahunt. I noticed.
    Mr. Sherman. In any case, I am a little less enthusiastic 
about repealing Jackson-Vanik or failing to apply it in the 
manner that has prevented Russia from joining the WTO. That 
doesn't mean I couldn't reach that conclusion, it is just that 
I lack the bubbling enthusiasm of some of my colleagues.
    I do not think that we have seen a real reset in our 
relationship with Russia. It is true in supplying Afghanistan, 
we can fly over their airspace, but we have air bases in newly 
independent former Soviet republics which are critical to 
dealing with Afghanistan and which Russia tries to undermine 
and expel at every turn.
    While Russia may eventually reluctantly agree to some sort 
of sanctions on Iran at the United Nations, you can be sure 
that they will be so tiny as to have no meaningful effect on 
Iran's economy, let alone any meaningful possibility of causing 
Iran to change its nuclear policy.
    We concluded the START negotiations. Doing so was perhaps 
good for the world. It also was a chance for Russia to stand 
side by side with the United States as coequal world 
superpowers, an honor that they don't enjoy near as often as 
they did before the fall of the Soviet Union.
    Now, I believe that the only way we can really improve 
Russia's behavior is by offering concessions on things that 
Russia really cares about. Jackson-Vanik is just one of the 
many things that we could offer.
    Now, I am a man of faith, but I do not believe in a faith-
based foreign policy. When it comes to making concessions to 
Russia, whether it be Jackson-Vanik or anything else, we should 
trust but verify. More particularly, we should get explicit--
sometimes private, but at least explicit--clear agreements for 
meaningful steps taken by Russia in return for the steps taken 
by the United States.
    Now, high-level Russian diplomats have repeatedly requested 
that we ``graduate'' them from Jackson-Vanik or eliminate 
Jackson-Vanik. Whichever device is used would be the same for 
Russia. They have described it as notorious in the Russian 
press. Boris Yeltsin once joked that every kid in Russia knows 
the names of Jackson and Vanik, and none of them particularly 
like either gentleman.
    This Jackson-Vanik modification is critical to Russia 
joining the World Trade Organization. Their efforts have been 
greatly complicated by the fact that we do not have permanent 
and unconditional normal trade relations or most-favored-nation 
status with them, and that is as a result of Jackson-Vanik.
    Both President Putin and President Medvedev have argued in 
favor of their country joining the World Trade Organization, 
acknowledging that their country's inability to join the WTO 
has stunted the Russian economy and made it less competitive. 
According to the Congressional Research Service, the change the 
United States would experience from Russia's graduation in 
terms of our trading relationship would be minimal. Russian 
imports have entered the United States on a constantly renewed 
normal trade relations basis since 1992. So this is not 
primarily a balance of payments issue or even a jobs issue, 
this is a foreign policy issue.
    Now, I have often said and that I would like to see a grand 
bargain with Russia in which we would tender concessions not 
only on Jackson-Vanik, but on other issues of importance to 
Russia; that we would listen carefully and perhaps modify our 
positions with regard to such issues as Acacia, South Ossetia 
and Moldova. But this major grand bargain would have to be in 
return for truly crippling, immediate mandatory United Nations 
sanctions on Iran. The State Department isn't even talking 
about such sanctions, so it seems unlikely that our State 
Department is going to negotiate a grand bargain worthy of the 
title.
    Preventing Iran from developing nuclear weapons should be 
our number one foreign policy objective. I do not expect Russia 
to massively change its policy toward Iran just on the Jackson-
Vanik issue alone, and I don't think that it is credible for us 
to say the only thing we are willing to change is Jackson-
Vanik, and we are waiting for Russia to vote for massive and 
crippling sanctions on Iran.
    So, our purpose here at these hearings is to focus on 
Jackson-Vanik as perhaps the sole immediate concession that we 
are willing to offer the Russian side. If we do so, we--as 
others have noted, it can be said that Moscow is in compliance 
with the purpose of Jackson-Vanik, which was to allow chiefly 
Soviet Jews to emigrate. But while the Jews of the Soviet Union 
are no longer being held hostage, their sacred papers are, and 
this is clearly something that needs to be dealt with before we 
change Jackson-Vanik. I refer to the Schneerson collection of 
books and archives, which are sacred chiefly to those Jews in 
the Chabad or Lubavitch movement.
    Without objection, I will put into the record the many 
letters that I have sent to such Russian leaders as Vladimir 
Putin, which I have hand-delivered at the Russian Embassy to 
the Ambassador, which I have handed to virtually every Russian 
dignitary who has come to the United States and visited Capitol 
Hill since 2004. And when I didn't personally hand these 
letters to them, my good friend Dana Rohrabacher did. I want to 
note also for the record that I have never received a response.
    I did hear third-hand a rumor that the Russian response 
would, after 6 years, be that they seem to have some procedural 
defenses usable in both Russian and perhaps even American 
courts, but not a single word has been uttered as to why as a 
matter of justice the Russian state should retain these 
documents sacred to the Chabad movement, in particular, the 
Schneerson collection of papers divided between the Schneerson 
Archives and the Schneerson Library.
    Let me focus chiefly for today on the Archives. These were 
legally removed from the Soviet Union in the 1920s by Rabbi 
Schneerson. They were seized by the Nazis and then fell into 
the hands of the Red Army. It is well established that assets 
seized by the Nazis should be returned to their rightful 
owners, and yet the Red Army and the Soviet state continues to 
hold these Archives.
    Contrast that to the fact that certain Russian archives, 
chiefly the Smolensk Archives, fell into American hands, I 
believe, after being captured by the Nazis. It took us a while, 
but in 2002, we returned these documents to the Russian state. 
It is disappointing that this unilateral concession, this 
return of important papers, was not matched by the return of 
the Schneerson documents to the Chabad movement.
    Now, it is said that Jackson-Vanik has achieved its 
purpose. Jews are no longer being held hostage. But the sacred 
papers of the Chabad community are still held hostage.
    Tom Lantos in April 2007 declared that while he was 
chairman, Jackson-Vanik would not be lifted unless the 
Schneerson collection was returned to the Chabad movement. I 
cannot make that pledge quite as strong because I am not 
chairman of the full committee, but I will pledge to work hard 
to make sure that Tom Lantos' pledge remains viable, and that, 
having returned the Smolensk Archives, we should not be asked 
to sweep away Jackson-Vanik until not only the people, but the 
sacred documents are also released.
    I yield back.
    Mr. Delahunt. I thank my friend.
    I now go to the gentleman from California, the ranking 
member on the Subcommittee on Oversight, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for calling this hearing and following up on 
discussions that we have had with people, with our counterparts 
in Russia, who are sincerely trying to develop a better 
relationship with us.
    It was very difficult to explain to them why Jackson-Vanik 
is still on the books. I see one of our witnesses, my old 
friend Ambassador Steve Sestanovich, who worked with me during 
the Reagan White House. He worked there during the time when I 
remember Ronald Reagan went to Berlin, and there was 
considerable debate about what he should be saying, but when 
Ronald Reagan went to Berlin, he said, Mr. Gorbachev, tear down 
this wall. That was a long time ago. You look great for all 
these years, Steve.
    But the fact is, Mr. Chairman, that was a long time ago, 
and so much has happened. So I would ask my fellow colleagues 
to join me; when it comes to Jackson-Vanik, let's tear down 
this wall. It is about time that the relic, this ancient relic 
of the Cold War, be discarded. That doesn't mean we don't have 
issues between us, but let's take this off the table, because 
it is an impediment to negotiations and honest talks about 
setting up a better relationship between our countries.
    This is especially true when one realizes that today what 
you have in Russia is, yes, an imperfect democratic society. We 
can talk about the imperfections all day long. We happen to 
have a lot of imperfections in our society as well. However, 
there are some demonstrable things that need to be better in 
Russia. But, by and large, when you go to Russia, as compared 
to when I went to Russia in 1984, the churches are filled in 
Russia. In fact, the Russian people are very religious people 
compared to many other people in the world.
    You go there and you hear criticism of the government in 
Russia. There are opposition parties. Yes, they complain they 
didn't get permits to do this or that, but there are opposition 
parties, and their voice is heard, and they get to have 
demonstrations. There are actually opposition newspapers. You 
hear people on radio complaining about the administration.
    Now, there are some problems that we would like to point 
out, things that were done that we wouldn't have liked to have 
seen done in terms of some of the communications industry, but 
by and large there has been an overwhelming reform that has 
gone on in Russia in these last 30 years since Jackson-Vanik 
was put into place, an overwhelming reform that is so visible 
and so apparent. People are free to travel now where they 
weren't permitted to travel. Not only were they not permitted 
to travel, they could be shot trying to get over the fence back 
in the 1980s.
    We still have Jackson-Vanik, and we have not opened up the 
economic and political cooperation that we need to develop the 
kind of close relationship that would be beneficial to our 
people.
    Let's just note this: At the same time while we are keeping 
these relics from the Cold War on the table, we have provided 
China with most-favored-nation status, permanent most-favored-
nation status. We have provided China continued access to our 
markets. There has been transfers of technology. There has been 
major investments. We have built the Chinese economy, and there 
hasn't been one iota of political reform in China.
    For us to complain about the shortcomings of Russia while 
permitting this massive buildup of the Chinese economy that is 
now ruled by a government that has had none of this reform is 
so contradictory that we can see why perhaps the Russians are 
confused whether or not we want them to be our friends or not.
    Well, if we are to have peace in this world, if we are to 
have prosperity in this world, if Americans are going to be 
secure, we have got to have a good relationship with Russia. 
Whether it is combating radical Islam, or whether it is 
confronting the Frankenstein monster of a totalitarian China 
emerging on the world scene, either one of these things that 
are great threats to us, we need Russia on our side. We need to 
start treating them fairly and be rational and quit having 
things like Jackson-Vanik, relics of the Cold War, around to be 
impediments to developing a better relationship.
    Thank you very much, Mr. Chairman.
    Mr. Delahunt. Thank you, Mr. Rohrabacher.
    I think the final member on our Democratic side who wants 
to make a comment is also from California, Congresswoman Diane 
Watson.
    But, Diane, before I recognize you, I just want to note for 
the record, and I know that Brad Sherman possibly had a private 
conversation, and I will let him identify the conversation with 
Mr. Lantos, but I would be remiss not to note that on February 
21st, 2007, over Radio Free Europe and Radio Liberty, it was 
reported that U.S. Congressman Tom Lantos had called for an end 
to a decades-old U.S. restriction on trade with Russia. 
Speaking in Moscow, Lantos called the 1974 Jackson-Vanik 
amendment a relic of the Cold War and vowed to spare no effort 
in seeking its removal.
    So, we have somewhat of a disagreement, but I wanted to 
read that for the record.
    I now call on Congresswoman Watson.
    Mr. Sherman. Diane, if I could just speak for 1 minute?
    Mr. Delahunt. You will still have all the time you need.
    Mr. Sherman. I have no doubt that in February 2007, Tom 
Lantos wanted to see us repeal Jackson-Vanik. He then met with 
people concerned about the Schneerson collection in April 2007, 
and that is when he took the position that, of course, he would 
like to see Jackson-Vanik abolished, but only when these papers 
are turned over. I think he and I would have thought then that 
this would be a relatively simple matter.
    These papers are providing no particular benefit to Russia. 
It is like the dog on top of the pile of hay chasing every 
other animal away. The dog is not going to eat the hay. He is 
just there because the cow wants it.
    I also would point out--and I know the title of this 
hearing says that maybe Jackson-Vanik is a relic of history--
not all relics of history should be swept into the dust bin of 
history. The U.S. ownership of Alaska is a relic of the Lincoln 
administration.
    I yield back.
    Mr. Delahunt. I thank the gentleman and will agree, if he 
so chooses, since the Subcommittee on Europe would have 
jurisdiction, we would be happy to call for a separate hearing 
on the Schneerson Papers and accommodate your concerns.
    Having said that, let me now recognize the gentlelady from 
California Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman. I was there with 
Congressman Lantos when he made that statement, and I got the 
feeling that we should support it. And I think Mr. Rohrabacher 
was maybe traveling with us at the time.
    Past U.S. Presidents have continued to determine that 
Russia has been in full compliance with Title IV of the Trade 
Act of 1974 since September 1994. The Congress has not given 
any President the authority to repeal Jackson-Vanik. However, 
it is important to recognize the responsibility that we as 
policymakers have to consider any consequences of possible 
trade injury repealing Jackson-Vanik would cause the U.S. 
commerce.
    I am so pleased to hear you say, Mr. Chairman, that we will 
have a subsequent hearing on this issue. I think it is very 
important to look at it from both sides. But I was very pleased 
with the atmosphere that we got from the members of their 
Parliament and the openness that was not there when I first 
went to Russia in the 1960s. So we do need to really just 
deeply ask this question and weigh it.
    So I look forward to listening to the panel, and I thank 
them for appearing before the committee.
    I yield back.
    Mr. Delahunt. I thank the gentlelady.
    Now we come to the important part of the afternoon, which 
is to listen to our distinguished witnesses. Let me begin by 
introducing Ed Verona. By the way, you all have extensive 
resumes, and I will shorten them and just pick out the 
highlights.
    Ed Verona was appointed president and CEO of the U.S.-
Russia Business Council on June 1, 2008. Prior to that, he was 
the vice president of ExxonMobil Russia. In August, he was 
based in Moscow. He has a B.A. in political science from the 
University of Arizona and a master's of international 
management from the American Graduate School of Global 
Management.
    Next we have will Mark Levin. Mark Levin has been the 
executive director of the National Conference on Soviet Jewry 
since 1992. In November 2008, Mr. Levin was the Soviet Jewry 
Freedom Award recipient at the Boston-based Russian Jewish 
Community Foundation's annual gala. In September 2008, 
Ukrainian President Yushchenko awarded him the Order of Merit 
Medal in New York, and in June 2006, he was honored for 25 
years of distinguished service with NCJS here in Washington. He 
has an extensive background. Prior to coming to NCJS, he worked 
with the American Israel Public Affairs Committee, and he is a 
graduate of the University of Maryland.
    Ambassador Sestanovich is the George Kennan Senior fellow 
for Russian and Eurasian studies at the Council on Foreign 
Relations, and the Kathryn and Shelby Davis professor of 
international diplomacy at Columbia University. His particular 
areas of expertise are Russia and the former Soviet Union, the 
Caucasus and Central Asia, and U.S. foreign policy. He served 
as Ambassador-at-Large and special adviser to the Secretary of 
State for the New Independent States from 1997 to 2001. In this 
capacity, he was the State Department's principal officer 
responsible for policy tours to states of the former Soviet 
Union. He has his Ph.D. from Harvard and his B.A. from Cornell. 
He has written numerous books.
    Next we have Dr. Edward Lozansky, who is the president of 
the American University in Moscow, the first private university 
in Russia, which he founded in 1990 with Dr. Yuri Ossipian, at 
that time Gorbachev's science advisor, and Gavriil Popov, 
former mayor of Moscow. He is also founder and president of the 
World Russian Forum, an annual convention here in the U.S. 
Congress since 1981, to discuss the most important issues in 
the United States-Russia relationship and to promote the idea 
of an United States-Russian strategic alliance. He graduated 
from the Moscow Institute of Physics and Engineering, and 
received his Ph.D. in theoretical and mathematical physics from 
the Moscow Institute of Atomic Energy. He is the author of 14 
books and over 400 articles in the areas of science and 
humanities. He is a foreign member of the Russian Academy of 
Social Services.
    Mark Talisman was born and raised in Cleveland, Ohio. He 
graduated from Harvard with honors. For 14 years he was the 
chief of staff to the coauthor of the Jackson-Vanik amendment, 
Congressman Charles Vanik. He is the founding director of the 
Washington, DC, office of the Council of Jewish Federations. He 
is married with two children and two grandchildren.
    Next we have David Satter. He is a senior fellow at the 
Hudson Institute and a fellow in the Foreign Policy Institute 
of the John Hopkins University School of Advanced International 
Studies. He was the Moscow correspondent for the Financial 
Times of London from 1976 to 1982. He has written on Russia and 
the former Soviet Union for more than three decades. He 
contributes frequently on Russian affairs to the editorial page 
of the Wall Street Journal, Forbes and National Review Online. 
He is presently completing a new book about the Russian 
attitude toward the Communist past.
    Welcome, all.
    We will begin with Mr. Verona.

    STATEMENT OF MR. EDWARD S. VERONA, PRESIDENT AND CHIEF 
        EXECUTIVE OFFICER, U.S.-RUSSIA BUSINESS COUNCIL

    Mr. Verona. Thank you very much, Chairman Delahunt. Thank 
you for the honor of allowing me to testify here today on a 
subject which is of vital importance to the organization which 
I have the privilege to lead.
    The USRBC represents approximately 250 companies, 80 
percent of which are American, with the remainder being Russian 
and from third countries. Our membership encompasses a broad 
swath of industries, with companies ranging in size from those 
in the Fortune 100 to small consultancies and nonprofit 
organizations. They are leaders in the aerospace, automotive, 
consumers goods, high-tech and financial services sectors, 
among others.
    Our members employ a substantial number of U.S. citizens, 
who produce manufactured goods, develop and market advanced 
technologies, create entertainment products and provide 
financial and other services to one of the fastest-growing 
emerging-market economies. During most of the past decade, our 
U.S. member companies found Russia to be one of their most 
lucrative global markets, with many seeing annual growth rates 
in sales and revenues of over 20 percent.
    Indeed, the growth in U.S.-Russia trade has been nothing 
short of remarkable over most of the past decade, from $9 
billion in 2001 to $36 billion in 2008. Before the global 
recession hit in the latter half of 2008, our bilateral trade 
was on track to exceed $40 billion that year. While still 
modest in terms of overall U.S. trade, this volume represents a 
fourfold increase over the 2001-2008 period.
    U.S. exports to Russia, which comprise about a third of the 
total, are, for the most part, high-value-added goods that have 
provided skilled jobs for American workers and have earned 
American brands a solid reputation in Russia for quality.
    We believe that the potential for increasing U.S. exports 
to Russia is much greater than the levels already achieved. 
With the global economic and trade recovery now underway, and 
with the return of economic growth in Russia, we anticipate a 
gradual resumption of growth in bilateral trade.
    Unlike their counterparts in most developed markets, 
Russian consumers are coming out of this recession relatively 
debt free and, therefore, more likely to resume purchasing 
patterns of the past, including many iconic American brand 
products which they equate with a better quality of life, and 
our member companies are ready to take advantage of that 
opportunity.
    I mention the foregoing since I believe it is useful to 
establish why U.S. business has a stake in the question that 
has been posted by this panel: Is it time to repeal the 
Jackson-Vanik amendment for Russia?
    On the basis of the Trade Act of 1974, with regard to 
restrictions on immigration from the Soviet Union, it would 
appear that the main reason for that legislation was a 
situation that no longer pertains in the case of Russia. In 
fact, every U.S. President, as previously mentioned here, since 
1994 has found Russia to be in compliance with the emigration 
provisions of the amendment and has waived its application to 
Russia.
    The late Congressman Tom Lantos, now cited several times, 
who for years was one of the leading proponents of the 
amendment, said, as Chairman Delahunt has mentioned, shortly 
before he died that it was time to put behind us this relic of 
the Cold War, and he would spare no effort to bring that about.
    With respect to the other condition of the Jackson-Vanik 
amendment, namely the absence of a market economy, I would only 
note that the United States has officially recognized the 
Russian Federation as a market economy since 2002. It is hard 
to argue today in favor of maintaining Jackson-Vanik on the 
ground of either condition, emigration restrictions or the lack 
of a market economy. On the other hand, it is becoming 
increasingly obvious that the continued application of this 
amendment is undermining American efforts to encourage Russia 
to move toward a society and an economic system based on the 
rule of law.
    Three consecutive United States administrations have urged 
Russia to adopt and uphold internationally accepted standards 
of jurisprudence and advocated Russia's membership in rules-
based international financial and trade organizations. Yet in 
the case of Jackson-Vanik, we appear to twist the 
interpretation and implementation of our own law. The State 
Department has attested in numerous annual human rights reports 
that Russia does not restrict emigration on the basis of 
religious or ethnic identity.
    The United States also supports Russia's accession to the 
WTO. Failure on our part to reflect in our trade legislation 
the fundamental changes that have occurred since the enactment 
of Jackson-Vanik would appear to contradict the findings and 
policy positions of our own government.
    There are some who argue that we should not give something 
to Russia in return for nothing. Seen from Russia's 
perspective, this amounts to shifting the goalposts. It raises 
doubts about U.S. adherence to the letter and intent of the 
law, and sets a precedent of spurious reciprocity that Russia 
could exploit to its advantages in other circumstances.
    Keeping Jackson-Vanik on the books as bargaining leverage, 
which demonstrably it no longer affords, engenders cynicism and 
resentment and complicates efforts to establish a normal 
relationship with Russia.
    The USRBC acts as the Secretariat for the Coalition for 
U.S.-Russia Trade, an organization representing more than 60 
companies and trade associations who stand ready to advocate 
congressional graduation of Russia from the provisions of the 
Jackson-Vanik amendment and adoption of permanent normal trade 
relations with us once that country enters the WTO. Within the 
coalition are companies that have concerns about a number of 
trade issues with respect to Russia. Specifically there are 
questions about Russia's implementation and enforcement of 
intellectual property rights, about lapses in following 
science-based regulatory standards for imported poultry and 
pork products, and about the selective imposition of import 
tariffs against U.S. manufacturers.
    These and other critically important issues for business 
are being addressed in Geneva through negotiations on Russia's 
WTO accession. That is the appropriate venue, and the WTO is 
the appropriate instrument for ensuring Russian conformity with 
international trade rules.
    When Russia eventually enters the WTO on the basis of a 
commercially meaningful agreement, the United States will be 
prevented from enjoying the benefits of greater market access 
to Russia if we have not in the interim lifted Jackson-Vanik. 
This is a prerequisite to granting PNTR, without which we will 
be in violation of WTO rules and, therefore, at a disadvantage 
to the other nations who will compete against us to sell goods 
and services to the vibrant Russian market which I described 
before. The result would be fewer American jobs as export 
opportunities are lost.
    In our recommendations to the Obama administration in 
January 2009, the USRBC urged the administration to rescind 
Jackson-Vanik without prior condition as a gesture of goodwill 
to Russia and as a way to create momentum for the reset of the 
relationship.
    My experience convinces me that the Jackson-Vanik amendment 
has had no dissuasive or positive effect on Russia's trade or 
domestic economic policies. Rather, it has served as a 
convenient pretext for Russia failing to take the steps 
necessary to bring itself into compliance with the rules-based 
trading community. I believe, therefore, that it is a relic of 
a bygone era, and that it is time for the United States to 
remove its applicability to Russia.
    Thank you very much.
    [The prepared statement of Mr. Verona follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Thank you, Mr. Verona.
    Mr. Levin.

 STATEMENT OF MR. MARK B. LEVIN, EXECUTIVE DIRECTOR, NATIONAL 
                   CONFERENCE ON SOVIET JEWRY

    Mr. Levin. Thank you, Mr. Chairman. I would ask that my 
full statement be admitted into the record, and I will 
summarize.
    Mr. Delahunt. Without objection.
    Mr. Levin. Since 1971, the NCJS has represented nearly 50 
national Jewish organizations. They include the Anti-Defamation 
League, B'nai B'rith International, Hadassah and AIPAC, as well 
as hundreds of local Jewish community councils, committees and 
federations across the country.
    2010 marks the 30th anniversary of my professional 
involvement with NCJS. I made my first trip to Russia in 1982 
when I led a congressional delegation that met with Soviet 
officials and Jewish activists. I have worked on Jackson-Vanik 
issues since the start of my tenure with NCJS.
    The cause of free emigration is personally and 
professionally very important to me. It heartens me to see 
former Soviet bloc countries rejoin the community of free 
nations. Several of these countries have already graduated from 
Jackson-Vanik requirements in recent years, most recently 
Ukraine in 2006.
    Mr. Chairman, I would like to take this opportunity to 
summarize our basic points. First, NCJS supports the graduation 
of the Russian Federation from the Jackson-Vanik amendments; 
graduation, not repeal of the amendment. The Russian Federation 
has fulfilled the requirements of the Jackson-Vanik 
legislation, and we believe that the administration and 
Congress should move forward on graduation for Russia. This 
development would be a key step forward for Russia and for the 
Russian-American relationship.
    Second, we base our position on the undeniable fact that 
Russia today allows free emigration for all of its citizens, 
something that was denied to them during the 74 years of Soviet 
rule.
    Also I wish to note, as you did, Mr. Chairman, that there 
are no longer any visa tourist requirements between Russia and 
Israel. Russia's Jewish community has undergone nothing short 
of a renaissance over the last 20 years. Synagogues, day 
schools, community centers and kosher restaurants are now open 
in many large Russian cities. Over 1 million Russian-speaking 
Jews have emigrated to Israel, the United States and elsewhere 
since 1991. All of these facts are true indicators of Russia's 
satisfaction of Jackson-Vanik requirements and a testament to 
the amendment's extraordinary success in helping to secure 
freedom of emigration for Russian Jews and others wishing to 
emigrate from Russia.
    NCSJ has supported a Presidential Jackson-Vanik waiver for 
Russia since 1991. We worked closely with President George W. 
Bush to promote Russia's graduation starting in 2001. In 2009, 
President Barack Obama said that graduating Russia from 
Jackson-Vanik would be a foreign policy priority for his 
administration, something that we recommended during the 
transition period.
    Given the progress made by Russia in observing freedom of 
movement since the fall of communism, we continue to press for 
Russia's graduation. The United States Government has granted 
Russia an exemption from Jackson-Vanik requirements by a 
Presidential compliance determination every year since 1994. 
This was something that was done with our strong endorsement.
    After 16 years of proven compliance, the time has come to 
graduate Russia from the amendment. Mr. Chairman, almost all 
major Russian Jewish organizations strongly support graduating 
Russia from Jackson-Vanik. This is one of the best arguments I 
can make in favor of graduation. The U.S. Congress created the 
Jackson-Vanik amendment with the plight of the Soviet Jewish 
community in mind. This community, now Russian, no longer 
Soviet, says today these requirements are no longer needed.
    This does not excuse the Russian Government from addressing 
the very real problems in the Russian Federation that still 
confront its Jewish communities and others. First, I would like 
to note anti-Semitic incidents continue across the country. 
Secondly, the rise of ultraviolent, nationalistic skinhead and 
neo-Nazi youth groups is a very troubling phenomenon, as is the 
Russian Government's inconsistent prosecution of hate crimes. 
And lastly, certain aspects of the 1997 law on religion, which 
requires registration of religious organizations in communities 
with the authorities, continue to be a problem.
    NCSJ will keep engaging the Russian Government strongly and 
persistently on these and other problematic areas in the human 
rights field. We meet regularly with Russian officials in the 
United States and Russia and the international fora to make our 
position known. We have raised our general concern over human 
rights in Russia at every level of Russia's Government.
    We laud the praiseworthy attempt of Senator Jackson and 
Congressman Vanik and their congressional colleagues who 
crafted this groundbreaking legislation nearly 40 years ago as 
a sign of America's commitment to freedom of emigration and 
religion worldwide, and now we think it is time to move forward 
and recognize the profound changes for the better that have 
taken place in Russia and in Russia's Jewish community.
    Jackson-Vanik was instrumental in creating the opportunity 
for Jews and others throughout the former Soviet Union to move 
freely and to find new ways to express their identity. The 
United States' reset in relations with Russia offers a similar 
potential for progress in ways we did not imagine just 20 years 
ago.
    NCSJ and our member organizations are working to keep 
Russia's Jewish revival going. We want to ensure that the 
freedom to leave remains in place in Russia and elsewhere, and 
that those who decide to stay can continue to build their 
communities. NCSJ looks forward to continuing to work with 
Congress on these vital issues.
    And, Mr. Chairman, again, our position is to support 
graduation, not repeal of the legislation. We believe that 
Jackson-Vanik is not a relic; we believe that Jackson-Vanik is 
a testament to America's commitment to freedom, and that 
Jackson-Vanik is one of the great success stories of post-World 
War II in relationship to American foreign policy. P.
    Mr. Chairman, lastly, I just want to thank you again for 
this opportunity and look forward to working with you and 
others on the subcommittees.
    [The prepared statement of Mr. Levin follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Thank you, Mr. Levin.
    Ambassador Sestanovich.

   STATEMENT OF THE HONORABLE STEPHEN SESTANOVICH, GEORGE F. 
KENNAN SENIOR FELLOW FOR RUSSIAN AND EURASIAN STUDIES, COUNCIL 
 ON FOREIGN RELATIONS (FORMER AMBASSADOR-AT-LARGE AND SPECIAL 
    ADVISER TO THE SECRETARY FOR THE NEW INDEPENDENT STATES)

    Ambassador Sestanovich. Thank you, Mr. Chairman. I 
appreciate the opportunity to join in today's discussion. I 
have a fuller statement that I hope can be included in the 
record.
    Mr. Delahunt. Without objection.
    Ambassador Sestanovich. The Jackson-Vanik amendment has a 
proud and honorable past, but it has sunk into a state of 
purposelessness and confusion. It once symbolized American 
human rights concerns and facilitated the free emigration of 
hundreds of thousands of people. Today it remains on the books 
for reasons that have nothing to do with free emigration, which 
Russia has allowed for years. Instead, many Members of Congress 
seem to believe that keeping the amendment in force can assure 
better treatment of American products in the Russian market.
    This transformation of landmark human rights legislation 
into a trade weapon is dispiriting to many people, but there is 
no avoiding it. The Jackson-Vanik amendment is inextricably 
intertwined today with disputes about meat and poultry and 
other American exports. No proposal for how to deal with it is 
likely to succeed unless it also takes commercial interest into 
account. That is why the default policy of many on Jackson-
Vanik of both Republican and Democratic administrations has 
been to do nothing until accession to the WTO, Russia's 
accession to the World Trade Organization, is included. 
Congress would then be expected to pass a resolution that 
graduates Russia; that is, that declares the amendment no 
longer applies to it.
    Russia's actions over the past year, including new 
restrictions on American exports, and Prime Minister Putin's 
mishandling of negotiations with the WTO, have reinforced this 
default strategy. Nevertheless, waiting for WTO accession 
before graduation has several drawbacks. It means that Congress 
will not act until it has no choice but to approve the final 
result. It means that if accession talks drag on, American 
exporters will remain vulnerable to arbitrary restrictions 
imposed on them by the Russian bureaucracy. And most 
importantly, it dodges the key task that the U.S. Government 
will face after graduation: How to advance the original goals 
of the Jackson-Vanik amendment, which apply not only to free 
emigration, but to human rights.
    Today there are some signs that Russian policymakers 
understand how unsustainable and counterproductive their 
handling of trade policy has been. If the next few months bring 
signs of a new Russian approach, Congress should be prepared to 
devise a new approach as well, one that advances both American 
commercial interests as well as Jackson-Vanik's original 
concern. Here is how it might work.
    The core element of a new approach would, of course, 
involve a willingness to graduate Russia from the coverage of 
the law, but it would include other elements as well. Congress 
might require side letters fully explaining the 
administration's view of remaining accession problems. Congress 
will want firm and specific commitments about how the 
administration intends to address these problems. Congress 
should also require before voting on graduation that the 
administration set out its future strategy for addressing 
issues of human rights, democracy promotion and engagement with 
Russian civil society. The resolution that graduates Russia 
from Jackson-Vanik might also provide for delay in taking 
effect until Russia's full accession to the WTO, but graduation 
would happen automatically unless both Houses of Congress voted 
for a resolution of disapproval. If such a resolution passed, 
the status quo would be restored; that is, normal trading 
relations but not permanent normal trading relations.
    Compared to the current strategy of waiting for the WTO to 
complete the process of accession, this approach would serve 
American interests in three important respects. First, 
economic: By confirming that PNTR would take effect 
automatically with WTO accession, it would add to Russian 
incentives to drop its neoprotectionist measures. Second, 
political: It would reinforce the so-called reset of Russian-
American relations and highlight the economic benefits that 
President Medvedev has said he is looking for from it. It would 
also highlight how little Russia has otherwise done to put 
aside the preoccupations of the Cold War. Finally, this 
approach would focus the attention of both Congress and the 
administration on the key issue that led to the adoption of the 
Jackson-Vanik amendment in the first place, the evolution of 
Russia's own political and legal system.
    The United States cannot expect to advance its interest in 
Russia's democratic evolution in the same way that we did in 
the 1970s and 1980s when Congressman Rohrabacher and I worked 
together. We need a modernized strategy, one that reflects both 
the dramatic changes that have taken place inside Russia and 
those that have not. The administration has some interesting 
ideas in this regard, and some of them have begun to be put 
into practice. Congress can help to consolidate and 
institutionalize these innovations by making them part of the 
process of graduation.
    The Jackson-Vanik amendment no longer offers us an 
effective policy. The task of Congress is to use graduation to 
refocus our strategy on the importance of Russia's continuing 
democratic evolution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sestanovich follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Thank you, Ambassador.
    Dr. Lozansky.

STATEMENT OF EDWARD D. LOZANSKY, PH.D., FOUNDER AND PRESIDENT, 
                       WORLD RUSSIA FORUM

    Mr. Lozansky. Thank you, Mr. Chairman. I also have a full 
statement which I would like to add to the record.
    My short answer to the subject of this panel is very clear 
and unequivocal: This graduation is absolutely necessary and is 
long overdue. I think it had to be done almost 20 years ago 
when communism collapsed and the new country which emerged from 
the ruins of the Soviet Union, the Russian Federation, has 
lifted all restrictions not only on citizens' rights for 
emigration and travel, but even such term as ``exit visa'' has 
been eliminated from the judicial vocabulary.
    On this distinguished panel I probably am the only one who 
benefited personally from the Jackson-Vanik amendment since I 
was separated from my family for more than 6 years, and I 
believe that, due to the Jackson-Vanik amendment, eventually my 
wife and child were able to come to the United States and join 
me here--by the way, my wife is here with me, and we have now 
three grandchildren. So I can--from a personal experience--tell 
you that when she came, we personally thanked Senator Jackson. 
We came to Congress. We met Senator Jackson, Senator Kennedy 
and over 100 Members of Congress who signed a petition to Mr. 
Brezhnev to release my wife and child and come here.
    So it was a great thing, but every political initiative, 
every political move has some time limits, and the time is now 
to graduate Russia from this amendment because it serves no 
purpose. All the requirements which were demanded are 
fulfilled. Russians--not only Jews, but every Russian citizen--
could now travel back and forth. And it is interesting that 
even Jews who emigrated to Israel and the United States or 
Canada or other countries go back and forth, and some of them 
return. Some of them still live in Israel and the United 
States, but do business and actually benefit from their 
contacts in both countries. And the Jackson-Vanik amendment 
actually makes a problem for them, because every time Russians 
ask them what is going on, why we still have this Jackson-Vanik 
on the book if you go back and forth.
    And I have to say that even there is no state anti-Semitism 
in Russia anymore, the Jackson-Vanik amendment maybe is the 
reason for some people expressing anti-Semitic views because 
they see it as a Jewish problem which creates a problem for 
United States-Russia relations.
    Also, freedom of the press was not really a part of the 
Jackson-Vanik amendment, still it is very important to think 
about democracy. And we keep hearing that there is no freedom 
of the press in Russia. This is not so. I go back and forth all 
the time. In fact, I am now teaching even a course at Moscow 
State University. Yes, three major channels are under 
government control, but there are hundreds, or maybe even not 
thousands, of TV channels which are free and operate as private 
channels.
    Moreover, interesting--and I don't think that too many 
people in this audience know that, except Russian experts--that 
there are sites, Internet sites, which are freely accessible to 
Russians, no restrictions, no censorship; have government-
funded sites which translate articles, even most critical 
articles about Putin, about Medvedev in Russia. So every 
Russian citizen has access not only to information with Russian 
newspapers, but also to American media. And including, of 
course, critical articles of my colleague, David Satter, 
Russians can read them openly on the Internet. And now we know 
that close to 40 or even 50 percent of Russians have access. So 
there is freedom of the press to this extent. It isn't perfect, 
but it exists.
    I already mentioned that I am teaching a course now at 
Moscow State University on U.S.-Russian relations. I can say 
anything I want, no restrictions. Moreover, I am inviting on 
Skype American experts who can also address Russian students 
and tell them their position. And some of them are pretty 
critical, and there is a lively discussion. But after each 
lecture students keep asking, why are you keeping this Jackson-
Vanik amendment in the books, because we don't know why you are 
doing this, because if on one hand you are saying that you want 
better relations, but then this amendment actually ruins 
chances for better U.S.-Russian cooperation.
    As an example: Many American think tanks now who have 
offices in Moscow, I happen to share my office of American 
University in Moscow on the same floor as Heritage Foundation. 
Everyone knows that the Heritage Foundation is very critical of 
Russian policy and of Vladimir Putin and President Medvedev and 
everyone else. Still they can say anything they want. They have 
access to the media, access to public opinion and including, by 
the way, the Foundation, they also have offices in one of the 
most prestigious places, Moscow Pushkin Square. They have 
regular seminars, discussions. They have visitors from the 
United States.
    So Russia is a free country. Yes, it is not perfect 
democracy in the American sense of the word, but it is free 
country.
    We are now talking about the Jackson-Vanik amendment. It is 
a very narrow issue. If the United States lifts and graduates 
Russia from this amendment, I believe it will be a tremendous 
boost to the United States-Russian cooperation in many issues, 
including Iran, including nuclear nonproliferation, terrorism, 
and many other issues which the United States faces. That is 
why I really urge all Members of Congress both to graduate 
Russia from this amendment as soon as possible and had to be 
done 20 years ago. Thank you.
    [The prepared statement of Mr. Lozansky follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Delahunt. Thank you, Doctor.
    And now Mr. Talisman.

  STATEMENT OF MR. MARK TALISMAN, PRESIDENT, PROJECT JUDAICA 
                           FOUNDATION

    Mr. Talisman. Thanks, Mr. Chairman. I really appreciated 
Mr. Scott's lyrical and cultural references to start a hearing. 
We should have done that years ago at the Ways and Means 
Committee. It would have lightened things a little. And also a 
number of other things which I want to touch on which you have 
brought up which enhance the record statement that I made, 
which I hope will be inserted appropriately.
    Mr. Delahunt. Without objection.
    Mr. Talisman. Jackson-Vanik was an idea that I didn't even 
think was going to work when Charlie Vanik and I were talking 
about it. You should note that--and this is the place I can say 
it now, in the record officially where he lived for so long--
that he went on his own personal codel in December 1971 and 
wouldn't even allow me to accompany him on the back of a Harley 
in black leather to tour Mother Russia. And it was during that 
time the effects of a travel ban and education ban were put in 
force.
    This was a Catholic kid raised in Cleveland. I knew his 
parents, his mother, very well. And engrained in him, as with 
your constituents up in Massachusetts, was what I called Bible 
talk as street language, not for special favors from the 
Church. And he saw the antithetical activities going on the 
ground, and he came back absolutely outraged. And I spent my 
moment in hell on bread and water at the Congressional Reading 
Room finding a precedent. Until I found it, I was not released. 
And I found it in a little book from Mr. Orbach, a nice green 
little volume of precedents of some sort with two tsars, with 
Abraham Lincoln and our other professor, Professor Wilson, in 
1912, with suspension of American trade with both because of 
pogroms not only against the Jewish population, but within the 
embassies where there were Jews serving their country and got 
beat up when they left the embassy grounds. So it was not new 
in our body politic.
    The Vanik amendment died with the session. And then came 
1972, which was a huge tidal wave of all sorts of mixed 
emotions, needless to say, because while Mr. Nixon was among 
the brightest Presidents we had among our folk on the other 
side of the aisle, he was not a guy you wanted to travel to 
Russia with. So as a consequence, when that bond took place, 
and the opening came there and in China, and Scoop Jackson did 
his thing and we did for 18 months before the Senate could 
act--and that is very important, because that was 18 months 
hanging in space as to whether this concept would work. The 
kind of activities that are represented here at the table at 
much later years that engendered a huge swell of activity for 
something brand new in terms of citizen action at a precinct 
level all over this country makes me have to say, Mr. 
Rohrabacher, that we are offended personally at the notion--and 
I mean this not personally--of talking about the antique nature 
of this relic, because that makes me much older than I feel. 
And--and--I can name you in private things that I know in the 
law that I was involved in, including one that was applied 
yesterday to save a human life that came from a law that was 
established by Executive Order in 1979. If it weren't on the 
books gathering dust, we couldn't have revived it. And I got to 
say, my advice to you all is do not repeal it, keep it in the 
tool bag, and let Russia properly be liberated.
    Mr. Delahunt. Graduated.
    Mr. Talisman. No, I am saying liberated first as a 
psychiatric state of mind; and secondly, by term of the art 
``be graduated,'' and replace graduation for repeal.
    I had this talk before the late great chairman--Congressman 
Lantos, for whom I have the highest regard and knew for 40 
years, and it was after he made the statement you referred to. 
And he said to me personally, I understand now; I will temper 
my language, is what he said to me. Because, you know, part of 
the cultural effects of the Cold War were use of language, and 
the kind of language we use sometimes--I don't know about you, 
but I know when I was writing speeches for Mr. Vanik, both of 
us wanted to try to find a technique to put things that were 
coming out of our mouth back in before they were recognized.
    Mr. Delahunt. No one on this panel has ever had that 
problem.
    Mr. Talisman. I know. I should have premised that.
    The fact is that I have also learned a personal lesson, 
because I felt I had a price on my head among those with whom I 
had contact in the Soviet Union. It was a death-dealing kind of 
thing for me because my family came from there, and my great 
grandfather was the Grand Rabbi of Russia. And we sort of knew 
when he left in 1903--he told me personally, he lived a long 
life--he said to me, don't follow me in my profession; go out 
and work in the precincts to help the democracy work. Because 
when he came here, he kissed the ground because he voted within 
a month after arriving. We had good precinct captains 
apparently.
    Mr. Delahunt. I don't want to ask if he was legal or 
illegal.
    Mr. Talisman. Did it matter? Where do you come from?
    Mr. Delahunt. I am an Irish American, Mr. Talisman. I know 
the drill.
    Mr. Talisman. Anyway, I had the most amazing thing happen 
to me personally. I did an exhibition called Scrolls from the 
Dead Sea, the real ones that had been hidden for years, and it 
opened at the Madison Building at the Library of Congress. And 
I always had a habit of all the 25 major exhibits I have done 
here to invite the embassies, because they never get invited to 
things like that, the whole embassy. Even the people who were 
driving cars, everybody, their families. I would have a 
dedicated evening. And I asked the Russian Ambassador, who had 
been trying to see me lots. And I reversed the tables, and they 
came. And within a month I had a telephone call.
    Now, instinctively I did not accept the invitation he gave 
to go within the compound on Wisconsin Avenue. I couldn't do 
that yet. But we did have lunch, and he asked me the most 
astonishing thing. And this was when things were pretty tough 
after freedom came in Russia. He said, you know, we have a 
problem with America. And I said, here we go again. The problem 
was different, and some of you know this from your talks and 
your visits. They have always felt like the stepchildren of 
World War II even though their losses were enormous. And Stalin 
essentially stopped communism to get everybody in the war after 
all the screw-ups. He said, we want you to go to Russia. We 
will give you the keys to every case you want to and every 
storage place you want to open. We need the story told of the 
1,184 days of the Russian involvement in World War II. Because 
as Eisenhower himself says on film, and this was the 
Ambassador, we did not win the war at D-Day with 5 million 
Russians on the eastern front and our blood all over the place. 
They were there.
    And I did it. I was there for 18 months in every nook and 
cranny of their storage with the most amazing artifacts that 
were real, including the hand notations of Hitler and of Stalin 
on all those treaties that we talked about, with the treaties, 
their own copies, everything. And every morning at 10 o'clock 
in the morning for 10 days at the Reagan Building--this was the 
first exhibit there--I was on national television, channel 1, 
across Russia taking a 1-hour tour for the Russian nation for 
all 11 time zones. What it meant to the Russian people was 
absolutely remarkable, and it shows what cultural cooperation, 
and it meant that to the success of cultural ministers.
    The one suggestion that comes out that comes from the 
little repartee you just had is that while the Chabad treasures 
of documents which are so vital to the community are really 
important, they are only important within the context of the 
fact that Russia took everything it wanted from--as booty of 
war from the entry into Germany. That meant it took a lot of 
Nazi stolen art belonging to the Jewish community leadership. 
It is enormous, and they all know it. And we have a State 
Department conference which I cochaired, a huge conference, and 
subsequent conferences where Russia has actually codified all 
that was taken, and they say it is fine, but it is ours. Well, 
these are the--this is a giant example of what needs to be 
worked on in a normal, in regular order, as is said in this 
House.
    Mr. Delahunt. Thank you, Mr. Talisman.
    Mr. Talisman. And that is it.
    [The prepared statement of Mr. Talisman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Thank you. I appreciate it.
    Mr. Satter.

 STATEMENT OF MR. DAVID SATTER, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Satter. Thank you, Mr. Chairman, members of the 
committee.
    The future of the Jackson-Vanik amendment has now become an 
important issue in United States-Russian relations. The reason 
is that the United States, having announced a reset in United 
States-Russian relations, cancelled an antimissile system in 
Eastern Europe and ignored Russian human rights abuses, all 
with little positive result, and is running out of ways to show 
its goodwill.
    Those who support rescinding the amendment point out that 
Russia has been in compliance with its provisions for the last 
16 years. They argue it makes no sense to retain a measure that 
has achieved its purpose and only serves to embitter bilateral 
relations. Unfortunately, however, we are in danger of being 
too literal. It is true that Russia now allows free emigration, 
but the Jackson-Vanik amendment was never based on an 
unbreakable link between trade and emigration. Opponents of the 
amendment correctly argued at the time that trade has nothing 
to do with emigration. The purpose of the amendment was to use 
the economic power of the United States to compel the Soviet 
Union to respect human rights. In this respect it is far from 
obsolete when applied to Russia today.
    By any measure Russia is more liberal than the Soviet 
Union, but it is also totally lawless. And the absence of 
secure rights is not an accident; it exists because it is 
necessary to assure the power of a kleptocratic elite which 
puts its interests ahead of those of the nation. This creates a 
parallel with what existed under the Soviet Union. Like the 
Soviet authorities, the present Russian leaders use a supposed 
foreign menace to divert the attention of the population from 
their rightless situation. The target of choice is not Iran or 
North Korea, countries which could pose a real threat to 
Russia, but rather the United States.
    The Jackson-Vanik amendment in and of itself cannot have a 
decisive impact on United States-Russian relations, but in 
deciding whether to rescind it, it is important to remember 
that good relations with Russia are not an end in themselves. 
The late Andre Sakharov pointed out that there is a direct 
connection between the Soviet Union's internal repression and 
its external expansionism. In Russia today massive corruption 
and lawlessness give rise to policies that frustrate U.S. 
objectives as a matter of proactive self-defense. The object of 
American policy should be to seek to change this fundamental 
relationship.
    The Jackson-Vanik amendment should not be eliminated to 
bury the Cold War or reinvigorate the dubious reset. It can be 
rescinded, but this should be done only in response to examples 
of clear progress in democratic governance, capable of limiting 
the scope of arbitrary power in Russia and improving the lot of 
the population.
    The following are examples of areas in which improvements 
could legitimately be tied to the elimination of Jackson-Vanik. 
First of all, the legal system. In the opinion of Russians, the 
legal system is prejudiced, inefficient, corrupt and ready to 
defend whoever can pay for it. A Supreme Court judge Tamara 
Morshchakova argued that judicial independence in Russia is 
nonexistent, stating that any official can dictate any decision 
in any case. A good example is the situation of Mikhail 
Khodorkovsky, a Putin opponent who now faces his second trial, 
this time accused of stealing virtually the entire production 
of the Yukos Oil Company. If convicted, and it is virtually a 
foregone conclusion that he will be, he could spend the rest of 
his life in prison. He was convicted in 2005 of failing to pay 
taxes on Yukos profits. At that time no one suggested that the 
oil on which those taxes were levied had been embezzled.
    Another sign of the state of the rule of law in Russia is 
that Russians file more complaints in the European Court than 
people from any of the 46 countries that make up the Council of 
Europe. Most of the thousands of complaints are never heard, 
but of the small number that have been, almost all have gone 
against Russia.
    Perhaps more important is the question of selective terror. 
There is no mass repression in Russia, but journalists and 
human rights activists risk their lives if their reporting 
threatens powerful interests. At least 17 journalists have been 
murdered in Russia since 2000. In not a single case has the 
person who ordered the killing been found. In cases such as 
those of Anna Politkovskaya and the American Paul Klebnikov, 
where underlings had been charged only to be acquitted under 
puzzling circumstances, the alleged participants have appeared 
to have a maze of links to the security services. Natalya 
Estimirova, a single mother who was virtually the only source 
of information on torture, abduction and murders carried out by 
the security services in Chechnya, was herself abducted in 
Grozny and murdered last year. Sergei Magnitsky, a lawyer for 
Hermitage Capital Management who exposed a $230 million tax 
fraud carried out by Russian officials, was accused of 
corruption himself and jailed. He then died in a prison medical 
isolation unit after warning the prison staff that someone was 
trying to murder him. Subsequent events indicate that he 
accurately foretold his fate.
    And finally, anti-American propaganda in the Russian media. 
The reset in Russian relations is largely a figment of our 
imagination and is something which operates in only one 
direction, with us implicitly acknowledging that we have done 
something wrong, which, of course, we haven't. Anti-Western 
propaganda in the Russian media continues, and it is pervasive, 
and it affects the way in which the Russian population views 
the United States.
    The Russian regime reacts badly to U.S. efforts to support 
Russian democracy, but we have an interest in the success of 
democratic processes in Russia. Democracy in Russia, the 
world's second nuclear power, means stability. At the same 
time, undemocratic Russia is unpredictable. In a crisis it is 
too easy to mobilize a rightless population against the United 
States.
    The Jackson-Vanik amendment surely will eventually be 
rescinded with regard to Russia, but this should be done in 
response to improvements in Russia's internal situation. In the 
absence of such improvement, haste in scrapping Jackson-Vanik 
is simply not necessary. Thank you.
    [The prepared statement of Mr. Satter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Delahunt. Thank you, Mr. Satter.
    Let me direct a question to you, Ambassador Sestanovich. 
You just heard the testimony by Mr. Satter. I will tell you 
what my problem is. We speak to the rule of law, and we 
maintain that this is an abiding principle in our democracy, 
and yet we have heard arguments and valid observations about 
Russian behavior. But the law, as I understand it, is clear, 
and it is clear in the sense that its rationale is predicated 
on what I consider to be a human right, the right to travel, 
the right to emigrate. I have been advocating, by the way, for 
Americans' right to travel to Cuba. I don't like the fact that 
we have a travel police here in the United States called OFAC 
where grandmothers are fined because they took a bicycle tour 
around Cuba.
    So I am there on this particular fundamental right, this 
value, but what I am hearing is we need to get something. You 
know, we can give it when we see improvements in democratic 
governance in Russia.
    What I would submit, and I would ask you, Ambassador, and 
everyone else can comment on it, in the eyes of Americans are 
we eroding the principle of rule of law, respect for the law, 
when we say this was about the right to travel and emigration, 
but now it is about a lot of other things, too, when the 
overwhelming consensus of scholarly analysis of Jackson-Vanik 
as drafted by Mr. Talisman and Representative Vanik was to 
ensure that it would end restrictions on emigration? Now we are 
taking that and we are using it not as a scalpel, but, boy, we 
have got it, and we are going to use it, and we don't give a 
damn about the rule of law. Is that the message that we are 
sending?
    Ambassador Sestanovich. Thank you, Mr. Chairman.
    If you look at the language of Jackson-Vanik, it actually 
says in the very first sentence that its purpose is to assure 
the continued dedication of the United States to fundamental 
human rights. It focused on emigration, and there were many 
historical reasons for that. Over time the law became a symbol 
of what it announced in its very first sentence, which is a 
commitment to fundamental human rights. But I agree with you, 
the connection that it established and the condition that it 
established was----
    Mr. Delahunt. If I can interrupt. If one read the 
legislative history and reviewed the Congressional Record in 
terms of the debate in committee, on the floor, both in the 
House and the Senate, I dare say it was exclusively limited to 
the plight of Soviet Jewry.
    Ambassador Sestanovich. Right. That is a correct, I think, 
description of the legislative history, although, I will be 
honest with you, I haven't read it.
    I would answer you slightly differently. If I thought, and 
if any member of the panel here thought, that you could solve 
the problem of the lawlessness of the Russian system by keeping 
Jackson-Vanik on the books or by trying to pursue some kind of 
deal, I think we would all be in favor of it. My problem with 
trying to solve all of these problems of Russia's internal 
evolution is not that Jackson and Vanik didn't want to solve 
them, it is that you can't do it. And we need to retain a 
policy that focuses on the importance of Russia's internal 
evolution for reasons that I think most people here would 
probably agree with. That kind of evolution is important in the 
United States, but you can't do it through Jackson-Vanik. That 
leverage just isn't there.
    Whether it stays on the books or not, we are not going to 
be able to bring about the kind of change that we would like. 
That is why in my remarks, Mr. Chairman, I emphasize the 
importance of having--of coming up with a new policy, a 
modernized policy, that addresses some of those concerns.
    Mr. Delahunt. Before I go to Mr. Talisman, I noted in your 
prepared statement that you quoted Natan Sharansky, saying that 
this great tool, which is Jackson-Vanik, for the advancement of 
human rights has become a weapon of the U.S. agricultural lot. 
You know, I think that is a very insightful remark. And I think 
to introduce the commercial interest, and I am not naive, into 
this issue in some ways does a disservice to the legacy of 
Jackson-Vanik because it was about human rights.
    Mr. Talisman.
    Mr. Talisman. Thanks, Mr. Chairman.
    The legislative history as we sort of lived it day by day 
was emigration, it was not only Soviet Jewry. We met with all 
faiths in basements in the middle of the night, and some of the 
members, including Lou Stokes, got arrested for it.
    Mr. Delahunt. Right. And I don't mean to focus specifically 
on----
    Mr. Talisman. No, no, I am not blaming, but I want the 
record to show that that was the focus, and not poultry. That 
is the point. It denigrates the elevation here.
    Mr. Delahunt. Exactly. And that was the point I was just 
making to Ambassador Sestanovich, that it was about human 
rights with a special focus on emigration.
    Does anyone else want to take a shot? Mr. Levin and then 
Dr. Lozansky, and then I will yield to my colleague from 
California, the one to my left, not the one to my right.
    Mr. Levin. Mr. Chairman, we, in my organization, over the 
years have tried to maintain a clear position of support for 
the original intention of the amendment. In fact, over many 
years there have been numerous attempts by different Members of 
Congress in both parties to expand the scope and definition of 
the amendment, and it is something that my organization, my 
membership, opposed, because as Ambassador Sestanovich has 
said, there are many issues that need to be addressed and 
should be addressed in dealing with Russia's overall human 
rights record.
    The beauty of Jackson-Vanik is that while it does talk 
about the promotion of human rights, it focused on a particular 
freedom, a freedom that has been expressed for not just in the 
United States, not just in the 21st century, but for thousands 
of years, the right of free movement, and we have lost that 
focus over the last few years.
    And just one other point. When we testified in 2002, we 
talked about steps that the Bush administration could take, or 
any administration could take, to ensure that this issue 
wouldn't be lost and that our other concerns wouldn't be 
forgotten. In fact, President Bush wrote a letter to NCSJ 
talking about assurances that he had received from his 
counterpart. It is something we could add to the record if you 
would like.
    And I don't think whether it is NCSJ or broad-based human 
rights groups, if Russia has graduated, that we are going to 
forget about these other concerns. We will take care of this, I 
know the Congress won't, and then look at--continue to press on 
these other concerns.
    Mr. Delahunt. I appreciate that. At the same time, you 
know, as Mr. Verona points out, I don't want to be in a 
position to lose jobs for American workers at a time when we 
need them. And it is clear that, as Mr. Verona pointed out--
that, you know, Russia is emerging relatively--you know, 
relatively debt free, and that market that was increasing, and 
it had been abysmally low, is an opportunity for American 
commercial interests.
    Dr. Lozansky.
    Mr. Lozansky. Well, at least for me Jackson-Vanik was 
always about emigration. And I remember when I personally met 
Senator Jackson, we discussed about the amendment, and I 
thanked him personally. And he also--at least in my mind, he 
talked about emigration. And I wonder what would Scoop Jackson 
say now if someone would say that some of U.S. Members of 
Congress including using this as a chicken-meat approach to 
human rights. So many Members of Congress are now on the record 
saying that Russia cannot be graduated from Jackson-Vanik until 
they buy more American chicken. Well, American chicken is 
great, I love it, and I think we should sell it to the 
Russians. But linking this to Jackson-Vanik, I think it is not 
very good.
    But also I want to stress that--it is a charity for Russia. 
First of all, it will cost American taxpayers nothing, but in 
turn it will bring great goodwill from Russian people, and I 
think it will highly increase--it is the first step, and so far 
we can't really put a long list of achievements. But I can 
assure you if we graduated Russia of the Jackson-Vanik 
amendment, this list will raise and only increase dramatically.
    Mr. Delahunt. Thank you, Doctor.
    I am going to go to my colleague, the ranking member Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    First of all, let me associate myself with the remarks of 
Mr. Sherman. I think that giving back the sacred documents and 
books and papers to Chabad would be a great gesture of 
goodwill, wouldn't cost anybody anything. And if there is a 
message that we can give to people who are listening to the 
other government is why not do this? This would be a great 
gesture of goodwill.
    I associate myself with Mr. Sherman's remarks, although I 
do not believe that should hold us up in assessing what 
Jackson-Vanik is all about. Let us just note that, first of 
all, in our own country is Russia--should Russia be considered 
a democratic country that is flawed now, or should it be 
considered still a rogue nation, a lawless nation?
    A lot of Americans don't like to remember this. I lived in 
North Carolina when I was a young boy, and I remember the Ku 
Klux Klan in North Carolina even in those days, in the 1950s. 
But for at least 70 years we had a terrorist organization that 
were murdering people who were trying to organize the right of 
a group of our fellow citizens to vote. They were murdering 
Black people in order to terrorize them. The judges let them 
go. The government didn't enforce the law for 70 years in our 
country's history. Now, was our country a democratic country at 
that time, or was it a rogue, lawless Nation? No. It was a 
flawed democratic country, and we had our flaws. We needed to 
work on it.
    There are things that Russia now has that are flawed, but 
it is essentially a democratic country and should be treated 
that way. And if they do, we should be working with the forces 
who want to help reform that society, and perhaps maybe as we 
needed to reform our judicial system so that the Ku Klux Klan 
wasn't running all over the place murdering Blacks, maybe we 
need to make sure we work with Russian people to help them make 
sure their judiciary system is protected.
    Mr. Satter, you made some good points about some of the 
flaws that I am talking about. Do you believe that these same 
restrictions that you now want to maintain, the Jackson-Vanik 
restrictions legally maintain, do you think they should be 
applied to China?
    Mr. Satter. I hesitate to answer questions about China 
because I haven't studied China the way I have studied Russia.
    Mr. Rohrabacher. It doesn't take very much study to 
understand that there hasn't been any reform in China. You 
don't have to spend 2 days in the library to understand that 
all of the things you are complaining about with Russia have 
not been done in China, yet we have a demonstrably more 
positive relationship toward China than we do toward Russia.
    Mr. Satter. Well, in general terms I certainly feel that we 
should work and put pressure to the extent that we can on the 
Chinese leadership to respect human rights, just as we do in 
the Soviet Union, just as we should in the case of Russia.
    Mr. Rohrabacher. But you don't know if you would impose 
this?
    Mr. Satter. Simply I don't feel qualified to give such a 
precise answer.
    Mr. Rohrabacher. To all those people who don't feel 
qualified, let me suggest that they go to Google and Google 
``Chinese soldier shoots Tibetans at the border,'' and what you 
will find is to this day that if Tibetans try to leave Tibet, 
Chinese snipers will kill them as they are trying to leave 
Tibet. And there is a picture going on right on Google.
    The contradiction between the way we are treating China, 
which is the world's worst human rights abuser, and Russia, 
which has had the most progress in human rights in my lifetime, 
is staggering. And no wonder it leads some of the people in 
Russia to doubt our sincerity, the good people in Russia, as 
well as perhaps the bad people as well.
    I would again suggest that we--I will just suggest--thank 
you very much for your testimony today.
    Mr. Chairman, I think you have a great group of witnesses, 
and the points you have made I generally agree on. And I 
listened to what you had to say, Mr. Satter.
    Mr. Satter. Well, thank you.
    Mr. Delahunt. Mr. Sherman.
    Mr. Sherman. Thank you.
    Dan, I am sure if I go to Google, I will see that picture. 
I am also sure if I went to China and I went on Google, I would 
not see that picture.
    Mr. Rohrabacher. But if you were in Russia, you would see 
it.
    Mr. Sherman. Ambassador, you put forward an interesting 
legislative proposal. I think it is sophisticated except in one 
aspect where you talk about a resolution of disapproval. That 
is what Congress does when we want to give ourselves the 
illusion that we have some control, while depriving ourselves 
of all control. A resolution of disapproval, even if it were 
passed by both Houses of Congress, would probably be vetoed by 
the executive branch and then would be effective only if we 
overrid the veto in both Houses of Congress.
    I suggest instead that you provide for expedited 
consideration of final approval or simply drop the measure 
altogether. Expedited approval is when Congress really retains 
control, and I would think resolution of disapproval is worse 
than nothing because it gives us the illusion.
    Much has been said about Tom Lantos. It is testimony to his 
status that we are talking about his position. It seems clear 
that in February 2007, he was for unconditional removal of 
Jackson-Vanik from Russia. But in April--and in my opening 
statement I specifically said that it was in April 2007 that he 
conditioned that on one very modest condition, and that is that 
the Chabad papers, the Schneerson Papers be turned over. And I 
believe that that was his consistent position from April 2007 
until his death almost a year later.
    Jackson-Vanik was about Soviet Jews. Yes, it covered other 
groups as well, but it was always interpreted to be Soviet 
Jews. The people are free to leave Russia, but their sacred 
documents are still held hostage. I should point out that 
Lubavitch, the town where the Chabad movement was based, and, 
in fact, it is the Lubavitch rabbi that created these papers, 
is in the Smolensk region of Russia. And we turned over in 
2002, coincidentally perhaps, the Smolensk archives that came 
into our possession during World War II. And it is regrettable 
that Soviet Russian leaders at that time, having obtained the 
archives that they had asked for, did not return to the 
rightful owner the rabbi's papers.
    Mr. Levin, the archives, half of the papers I am talking 
about, were papers that Stalin allowed to be taken out of the 
Soviet Union, or at least--I don't know if he was, I doubt he 
was personally involved--but a government under his control. 
And yet now the current Government of Russia refuses to allow 
these documents to leave. Why? Any insight into the Russian 
position other than, well, there are some Jews in the United 
States that want these papers, therefore they will not be 
turned over?
    Mr. Levin. Mr. Sherman, I can't speak for the Russian 
Federation, nor will I try, but I think----
    Mr. Sherman. Can you mention any advantage or a benefit 
that Russia obtains by holding these papers?
    Mr. Levin. No, I can't.
    Mr. Sherman. Are these a great tourist attraction? Are they 
treated as important? Are thousands of Russians lining up each 
day to see these the way that thousands of Americans line up to 
see the Liberty Bell?
    Mr. Levin. You should know that for the last 20 years on 
and off, but mostly on, NCSJ has worked with the Chabad 
leadership to try to move this issue forward. And we have been 
on record urging the Russian Government to return the Library 
or to work out some sort of arrangement that satisfies both 
Chabad and the government.
    It should also be noted that there is some controversy 
between the Chabad community themselves about where the Library 
should reside. I would leave that up to Chabad to deal with. 
But make no mistake that our position is very clear, this 
collection should be in the hands of the rightful owners of the 
Chabad community. And we continue to--we will continue to raise 
this issue at every opportunity. I don't know, and----
    Mr. Sherman. There are only 6 minutes left, so I will 
simply conclude with a comment on Mr. Satter's comments. And 
that is that I think if Jackson-Vanik is leveraged, it should 
be only something--we should look to something commensurate and 
relevant, and I am not sure that in return for Jackson-Vanik 
being removed, that the people who dominate Russia are likely 
to take actions that actually imperil their continued governing 
of the state, and we might want to look for something a little 
smaller and more relevant to the original first purposes of 
Jackson-Vanik.
    With that, I will yield back.
    Mr. Delahunt. I thank the gentleman.
    And let me recognize Mr. Scott of Georgia.
    Mr. Scott. Thank you very much.
    One of the reasons why I find this particular hearing so 
vitally important, within about 4 weeks I have to go give a 
paper on the future of Russia, United States, a new 
partnership. The interesting thing, I am going over to the 
Soviet Union to get this paper in Latvia. And our areas of 
concern are really in the new partnership, how we can work 
together to keep nuclear weapons and weapons of mass 
destruction out of the hands of terrorists, the Iran situation, 
missile defense, energy security. There is such a plethora of 
things we have got to work on.
    So the question is if this Jackson-Vanik treaty comes up--
because this is NATO, and we are going to have a parliamentary 
assembly and have meetings, I want to hear from you all, 
because I have been fascinated with each of your presentations, 
but I want to be clear in what each of you are saying.
    So if each of you could just very briefly tell me, in the 
event it is brought up, which it will be brought up in the 
discussion, the removal of, or should we say the graduation of, 
Jackson-Vanik, what do we gain by having it repealed or 
graduated in terms of the future of Russia-United States 
relations, and what do we gain if we don't repeal it? In other 
words, back to my first point, to be or not to be, to do or not 
to do, where is the benefit for the United States either way as 
we move to establish a new partnership and the advice you can 
give me to present this paper?
    Mr. Delahunt. We have 3 minutes, so we are going to ask 
each of the panelists to respond very quickly.
    Mr. Verona. I think we, one, uphold our own legal 
traditions. I think when we have a law on the books that is no 
longer applicable, we remove it, or we remove applicability to 
a single country. I think also if we pass other legislation 
affecting other countries, other circumstances, attempting to 
use a form of inducement, if we don't show that we are willing 
to rescind the law or to graduate a country from the effect of 
the law when they comply, eventually it erodes any credibility 
that a future compulsive action could have.
    Thank you.
    Mr. Delahunt. Mr. Levin?
    Mr. Levin. Mr. Scott, we demonstrate that we fulfill the 
commitments and the intent of the law, and we demonstrate that 
when hundreds of thousands of people are able to move freely 
from a place that they once were not. Then it is time to 
recognize that movement and graduate.
    Mr. Delahunt. Ambassador?
    Ambassador Sestanovich. Congressman, your first step in 
speaking to a Latvian audience will be not to call it the 
``Soviet Union.'' You want to say ``former Soviet Union.'' 
There is even a question----
    Mr. Scott. Thank you for that correction. I appreciate it. 
I will do that.
    Ambassador Sestanovich. The question that will be on the 
minds of people in your audience is in repealing or graduating 
Russia from Jackson-Vanik, are we suggesting that we don't care 
about things that we used to care about? And not just human 
rights, but, for example, the defense of our little allies that 
are on the border of Russia. What your audience will want to 
hear is that the repeal of Jackson-Vanik is a narrow decision 
reflecting the law and the solution of a problem that once 
bothered us, that once limited the rights of Latvians, but that 
it doesn't mean that the United States is suckered in 
evaluating and defending its own vital interests.
    Mr. Delahunt. Thank you.
    Dr. Lozansky.
    Mr. Lozansky. I would compare this graduation as removal of 
a huge irritating splinter from the wound, from the injury, 
which will create tremendous positive momentum for United 
States-Russian relations and cooperation on all the issues you 
just mentioned. I strongly believe in that, and I think that we 
have to do that as soon as possible.
    Mr. Delahunt. Thank you.
    Mr. Talisman.
    Mr. Talisman. I think graduation is essential, and I think 
the use of repeal is poison. It is absolute poison. Graduation, 
not repeal.
    Mr. Delahunt. Mr. Satter?
    Mr. Satter. Mr. Scott, I think it is a question of 
symbolism. Graduation of Russia will not change much, but the 
refusal to countenance it is a signal to Russia that, in fact, 
we don't accept everything that goes on there; that we have 
objections, we reserve the right to make objections; and that 
goodwill gestures will be based on their being justified.
    Mr. Delahunt. I want to thank this panel. It has been 
outstanding. I am going to be looking to some of you to assist 
me in drafting legislation, which I intend to file within the 
next several weeks, that will deal with the graduation of 
Russia from the aegis of the amendment.
    Thank you all so much. We are now adjourned.
    [Whereupon, at 4:10 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Sherman--FTR deg.__

  Material submitted for the record by the Honorable Brad Sherman, a 
Representative in Congress from the State of California, and Chairman, 
         Subcommittee on Terrorism, Nonproliferation and Trade

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Levin--FTR deg.__

   Material submitted for the record by Mr. Mark B. Levin, Executive 
             Director, National Conference on Soviet Jewry

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Delahunt--FTR deg.__

  Material submitted for the record by the Honorable Bill Delahunt, a 
Representative in Congress from the Commonwealth of Massachusetts, and 
                    Chairman, Subcommittee on Europe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
